CERTIFICATE OF COMPLIANCE
Case No. 20-1553
Caption: Reiyn Keohane v. Florida Department of
Corrections Secretary
As required by Supreme Court Rule 33.1(h),
I certify that the document contains1,508 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on June 15, 2021.

Nicole Garcia
Record Press, Inc.

Sworn to before me on
June 15, 2021

t

JASMINE WILLIAMS
Notary Public, State of New York
No. 01WI6397949
Qualified in Queens County
Commission Expires September 16, 2023

Notary Public

